     Department of Homeland Security




             FEMA Public Assistance Grant
           Funds Awarded to Grand River Dam
               Authority, Vinita, Oklahoma




DD-12-01                                      November 2011
                                                                           Office oflnspectoJ' General

                                                                            U,S. Depa rtmCII.t of Homelll.Ad   Se~urity
                                                                            Washington, DC 20528



                                                             ~Q.Homeland
                                                             ~~ Security
                                                NOV       1 2011


MEMORANDUM FOR:                      Tony Russell
                                     Regional Administrator, Region VI
                                     Federal Emergen y       agement Agency
                                                                                   ,-
FROM:                                Matt ladacki      4
                                     Assistant Inspec or Ge
                                     Office of Emergency Management Oversight

SUBJECT:                             FEMA Public Assistance Grant Fund., Awarded to
                                     Grand River Dam Authority, Vinita, Oklahoma
                                     FEMA Oisaster Numher 1678·0R·OK
                                     Audit Report Number 00·12·01

We audited public assistance grant funds awarded to the Grand River Dam Authority (Authority)
in Vinita, Oklahoma, Public Assistance Identification Number 000-006E9-00. Our audit
objective was to detennine whether the Authority accounted for and expended Federal
Emergency Management Agency (FEMA) grant fund s according to federal regulations and
FEMA guidelines.

The Oklahoma Department of Emergency Management (ODEM), a FEMA grantee, awarded the
Authority $9. l5 million for damages caused by an ice storm during January 12-26,2007. The
award rmvided 75% fEMA funding for eight large projects and one small project. I The audit
covered the period January 12, 2007, through March 28, 2011, the cutoff date of our audit, and
included a review of two large projects totaling $5.55 million, or 61 % of the total award (see
Exhibit, Schedule of Projects Audited).

We conducted this performance audit pursuant to the In.spector General ACI of I 978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perfonn the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions ba.c;ed upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this audit according to the statutes , regulations, and
FEMA policies and guidelines in eiTect at the time of the disaster,


I Federal regulations in effect a1 the time of the disaster set the large project threshold a1 $59,700.
We interviewed FEMA, ODEM, and Authority officials; reviewed judgmentally selected
samples of project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of the
Authority’s internal controls applicable to grant activities because it was not necessary to
accomplish our audit objective. We did, however, gain an understanding of the Authority’s
method of accounting for disaster-related costs and its procurement policies and procedures.


                                     RESULTS OF AUDIT

The Authority generally accounted for and expended FEMA grant funds according to federal
regulations and FEMA guidelines. However, we question $4,545 because the Authority’s claim
included contracting costs not related to the disaster event. To be eligible for financial
assistance, costs for an item of work must be required as a result of the major disaster event
(44 CFR 206.223(a)(1)). Authority officials agreed that FEMA should not be responsible for
these costs.


                                    RECOMMENDATION

We recommend that the Regional Director, FEMA Region VI:

   Recommendation #1: Disallow $4,545 ($3,409 federal share) of ineligible contracting costs
   not related to the disaster.


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Authority officials during the audit and included their
comments in this report, as appropriate. We also provided written summaries of our finding and
recommendation in advance to FEMA, ODEM, and Authority officials and discussed them at
exit conferences held on August 16, August 23, and August 15, 2011, respectively. FEMA,
ODEM, and Authority officials agreed with the finding and recommendation.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for the recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendation will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report




                                                2

will be posted to our website. Significant contributors to this report were Tonda Hadley,
Christopher Dodd, Patti Smith, Douglas Denson, and DeAnna Fox.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.


cc:	   Administrator, FEMA
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA (Job Code G-11-029)
       Audit Liaison, DHS




                                                3

        Schedule of Projects Audited 

  January 12, 2007, through March 28, 2011

Grand River Dam Authority, Vinita, Oklahoma

    FEMA Disaster Number 1678-DR-OK



Project     Project      Ineligible   Total Costs
Number     Funding         Costs      Questioned
  558     $ 4,759,996     $ 4,545        $ 4,545
  575         788,978             0             0
 Totals    $5,548,974     $ 4,545       $ 4,545




                        4

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
